                

                

                     U.S. ENVIRONMENTAL PROTECTION AGENCY 

                     OFFICE OF INSPECTOR GENERAL 




                     Improved Contract
                     Administration Needed for
                     the Customer Technology
                     Solutions Contract
                     Report No. 13-P-0398               September 16, 2013




Scan this mobile
code to learn more
about the EPA OIG.
Report Contributors:	                              Michael D. Davis
                                                   Teren Crawford
                                                   Nancy Dao
                                                   Kevin Haas
                                                   Debra Coffel




Abbreviations

CO            Contracting Officer
COTR          Contracting Officer Technical Representative
CPARS         Contractor Performance Assessment Reporting System
CSIRC         Computer Security Incident Response Capability
CTS           Customer Technology Solutions
EPA           U.S. Environmental Protection Agency
EPAAR         Environmental Protection Agency Acquisition Regulations
FAR           Federal Acquisition Regulations
ISO           Information Security Officer
NIH-CPS       National Institutes of Health’s Contractor Performance System
OAM           Office of Acquisition Management
OARM          Office of Administration and Resources Management
OIG           Office of Inspector General
OMB           Office of Management and Budget
OTOP          Office of Technology Operations and Planning
PO            Project Officer
PPIRS         Past Performance Information Retrieval System
QAM           Quality Assurance Manager
QASP          Quality Assurance Surveillance Plan
SP            Service Provider
SRI           Service Request Interface
WCF           Working Capital Fund




  Hotline
  To report fraud, waste, or abuse, contact us through one of the following methods:

  email:     OIG_Hotline@epa.gov                      write:    EPA Inspector General Hotline
  phone:     1-888-546-8740                                     1200 Pennsylvania Avenue, NW
  fax:       202-566-2599                                       Mail code 2431T
  online:    http://www.epa.gov/oig/hotline.htm                 Washington, DC 20460
                        U.S. Environmental Protection Agency 	                                            13-P-0398
                                                                                                  September 16, 2013
                        Office of Inspector General


                        At a Glance
Why We Did This Review                Improved Contract Administration Needed for the
The U.S. Environmental Protection     Customer Technology Solutions Contract
Agency Office of Inspector
General conducted this audit to        What We Found
determine whether the EPA             Based on our review of the WCF contract EPW08034, which ended
implemented effective contract        September 2012, the EPA needs to improve its contract administration to
administration for its Working        assist in managing other similar type contracts. The EPA did not, as stated by
Capital Fund contract EPW08034.       Office of Management and Budget, Federal Acquisition Regulations and
                                      agency guidelines:
The Office of Administration and
Resources Management’s Office             Use performance standards to measure cost outcomes. 

of Acquisition Management and             Complete any of the required contractor performance evaluation reports. 

the Office of Environmental               Maintain required contract administration documents. 

Information’s Office of Technology    The EPA did not have policies in place that would require performance metrics
Operations and Planning perform       and standards to be linked to cost outcomes and procedures to ensure
contract administration activities    contract administrators maintain sufficient documents in the official contract
with contracting officers, project    files. The EPA did not complete contractor performance reports because of
officers and quality assurance        insufficient guidance and inadequate communications during contractor
managers for the Customer             performance system changes and personnel reassignments. The EPA’s
Technology Solutions contract         contractor performance systems include the National Institutes of Health’s
EPW08034. Contract                    Contractor Performance System and subsequently the Contractor
administration involves those         Performance Assessment Reporting System, which transmits information into
activities performed by               the Past Performance Information Retrieval System. The EPA’s ineffective
government officials after a          contract administration may have hindered the ability of EPA staff to ensure
contract has been awarded to          that the contractor successfully met agency needs, as well as its ability to
determine how well the                determine whether the EPA achieved the best value for the $85 million
government and the contractor         expended on the WCF contract.
performed to meet the contract
requirements. Contract                 Recommendations and Planned Agency Corrective Actions
administration assists the            We recommend that the OARM assistant administrator update its policies and
government in assuring it receives    procedures to ensure that contract performance metrics and standards link to
the goods and services for which it   cost outcomes. We also made recommendations involving updating internal
paid.                                 programs to provide oversight and accountability for linking metrics to cost
This report addresses the             outcomes and the review and submission of contractor performance
following EPA theme:                  evaluation reports for the contract reviewed. Further, we recommend that
                                      OARM develop contract administration procedures related to the transfer of
 	 Embracing EPA as a high 
         documents when reassigning contract administrative staff.
    performing organization.
         OARM concurred with four of the six recommendations and did not concur
                                      with recommendations 1 and 2. The OARM’s corrective actions for
                                      recommendations 3 through 6 do not contain milestones nor completely
For further information, contact      address the recommendations and are unresolved.
our Office of Congressional and
Public Affairs at (202) 566-2391.      Noteworthy Achievements
The full report is at:                The Office of Acquisition Management implemented the Balanced Scorecard
www.epa.gov/oig/reports/2013/         program in fiscal year 2011 for the EPA Acquisition Systems to provide the
20130916-13-P-0398.pdf                necessary checks and balances to ensure procurement documents are of the
                                      highest quality and comply with applicable laws, regulations and policies.
                         UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                      WASHINGTON, D.C. 20460


                                                                                    THE INSPECTOR GENERAL




                                            September 16, 2013

MEMORANDUM

SUBJECT:	 Improved Contract Administration Needed for the
          Customer Technology Solutions Contract
          Report No. 13-P-0398

FROM:	         Arthur A. Elkins Jr.

TO:	           Craig E. Hooks, Assistant Administrator
               Office of Administration and Resources Management

               Renee P. Wynn, Acting Assistant Administrator and Chief Information Officer
               Office of Environmental Information

This is our report on the subject audit conducted by the Office of Inspector General of the
U.S. Environmental Protection Agency. This report contains findings that describe the problems the
OIG has identified and corrective actions the OIG recommends. This report represents the opinion of the
OIG and does not necessarily represent the final EPA position.

Action Required

The agency agreed with four of the six recommendations in this report. However, all six
recommendations are considered unresolved pending our receipt of EPA’s corrective action plan and
estimated completion dates that correspond with the specific recommended actions. Therefore, for all
recommendations, you are required to provide a corrective action plan with planned completion dates within
60 days of report issuance.

We will post this report to our website at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Richard Eyermann, acting
assistant inspector general for the Office of Audit, at (202) 566-0565 or eyermann.richard@epa.gov;
or Mike Davis, director for Efficiency Audits, at (513) 487-2363 or davis.michaeld@epa.gov.
Improved Contract Administration Needed for the                                                                              13-P-0398
Customer Technology Solutions Contract



                                   Table of Contents 


Chapters
   1    Introduction ........................................................................................................       1


                 Purpose .......................................................................................................    1     

                 Background .................................................................................................       1     

                 Noteworthy Achievements ...........................................................................                3     

                 Scope and Methodology ..............................................................................               4     


   2    Ineffective Administration of Contractor Performance ..................................                                     6


                 OMB, FAR and EPAAR Provide Guidance for Managing Contractors ........                                              6

                 Performance Metrics and Standards Not Linked to Cost Outcomes ...........                                          7

                 Contractor Performance Evaluation Reports Not Completed ......................                                     9

                 Conclusion...................................................................................................     11 

                 Recommendations .....................................................................................             11     

                 Agency Comments and OIG Evaluation ......................................................                         12 


   3    Inadequate Contract Records Management ....................................................                                13 


                 Federal and Agency Guidance on Records Management...........................                                      13 

                 Agency Official Contract Files Missing Required Documents .....................                                   14 

                 Conclusion...................................................................................................     16 

                 Recommendations .....................................................................................             16     

                 Agency Comments and OIG Evaluation ......................................................                         16 


   Status of Recommendations and Potential Monetary Benefits..............................                                         17




Appendices
   A     Contract Performance Requirements Summary .............................................                                   18 


   B     PO, CO and QAM Reassignments on CTS Contract .......................................                                      22 


   C     Relevant Recordkeeping Criteria......................................................................                     23 


   D     Agency Comments on Draft Report .................................................................                         25


   E     Distribution .........................................................................................................    32 

                                   Chapter 1

                                   Introduction

Purpose
            The U.S. Environmental Protection Agency Office of Inspector General
            conducted this audit to determine whether the EPA implemented effective
            contract administration for its Working Capital Fund contract EPW08034.
            Even though the contract ended on September 30, 2012, the EPA awarded
            subsequent contracts for the same services. In addition, the EPA can apply
            lessons learned from this audit to improve its contract administration that will
            assist in managing other similar types of contracts (see chapters 2 and 3).

Background

            Contract administration involves government activities performed after an agency
            awards a contract to determine whether the contractor met contract requirements.
            Contract administration activities include controlling costs, monitoring,
            measuring and reporting contractor performance, and maintaining records in the
            official contract files. Contract administration constitutes that primary part of the
            procurement process that assures the government gets what it pays for.

            The WCF is a revolving fund authorized by law to finance a cycle of operations in
            which federal agencies can charge the costs for goods or services provided to its
            customers. WCF customers include the EPA’s program offices and regions. The
            role of the WCF is to provide a centralized source of administrative and support
            services for the EPA. The WCF strives to reduce the costs of services in the
            agency through improved efficiencies gained by achieving economies of scale,
            greater consumer bargaining power, and reduction in overhead.

            The Office of Administration and Resources Management’s Office of Acquisition
            Management and the Office of Environmental Information’s Office of
            Technology Operations and Planning provide contract administration on the WCF
            contract EPW08034. OTOP personnel manage the work performed under the
            contract, which is with Customer Technology Solutions. CTS, a WCF data
            processing service, provides and coordinates all information technology end-user
            support and services for the EPA’s headquarters and field offices. Critical
            participants in the contract administration of the WCF contract include:

                  OAM’s contracting officers, who have overall responsibility for the contract.
                  OTOP’s project officers, quality assurance managers and quality assurance
                   evaluators, who monitor contractor performance and customer satisfaction.




13-P-0398                                                                                       1
                   Even though the Office of the Chief Financial Officer manages the WCF,
                   including reviews and processing of invoices, OAM and OTOP provide contract
                   administration functions.

                   In April 2008, the EPA awarded an indefinite delivery/indefinite quantity hybrid
                   contract. This hybrid contract also contained provisions for performance-based
                   award fees and fixed hourly rates and material costs for a time and materials
                   contract. This contract required the contractor to provide technology services to
                   approximately 12,000 program office users scattered throughout 16 states and the
                   District of Columbia. The total potential value of the contract was over
                   $200 million and covered the contract base period of June 1, 2008, to
                   September 30, 2012, and an option period available through December 31, 2016.
                   The EPA decided not to exercise the option period because the contractor had not
                   met the required performance metrics. Figure 1 summarizes the WCF’s top five
                   data processing service contracts obligated as of May 2012.

                    Figure 1: Top Five WCF obligations as of May 20121




                   Source: OIG analysis of EPA data.


                   The agency identified approximately $72 million of funds obligated for the CTS
                   contract EPW08034 as of May 2012. By October 2012, the EPA’s Compass
                   Financial2 system reported that the agency’s expenditures for this CTS contract
                   increased to approximately $85 million.

1
    OTOP’s WCF coordinator provided this information on May 11, 2012, in the form of an email.
2
    Compass is the EPA’s official financial database.


13-P-0398                                                                                            2
            The Federal Acquisition Regulation, Subsection 37.601(b), requires that:

                 Performance-based contracts for services shall include--(1) A
                 performance work statement (PWS); (2) Measurable performance
                 standards (i.e., in terms of quality, timeliness and quantity, etc.) and
                 the method of assessing contractor performance against performance
                 standards; and (3) Performance incentives where appropriate.

            The FAR Subsection 37.603(a) requires that performance standards establish the
            performance level required by the government to meet the contract requirements.
            In addition, this same FAR Subsection requires the performance standards to be
            measurable and structured to permit an assessment of the contractor’s
            performance. The EPA Contracts Management Manual [CMM], Section 11.1.5.7,
            “Developing a Performance Based Service Contract Quality Assurance
            Surveillance Plan,” states that a:

                   The quality assurance surveillance plan (QASP) defines what the
                   Government must do to ensure that the contractor has performed
                   in accordance with the PWS performance standards.

            The QASP objective is to assess the ability of the contractor to achieve the
            defined performance standards and fulfill contractual obligations. According to
            the CTS contract, the EPA defined the performance standards in the contract’s
            Technical Exhibit under the title “Performance Requirement Summary.”
            This CTS performance-based contract has a performance work statement,
            measurable performance standards, performance incentives and a QASP. The
            Performance Requirement Summary identified 44 performance metrics and
            standards. According to the QAM, the EPA used no other performance metric or
            standard to measure contractor performance. In addition, the EPA performed
            weekly and monthly evaluations based on the 44 performance metrics to monitor
            contractor performance per the FAR. According to the contract’s award fee plan,
            the EPA also used the 44 performance metrics and standards to determine whether
            the EPA would provide an award fee to the contractor. The 44 performance
            metrics identified categories that relate to quality and technical performance
            (a degree of excellence), timeliness and scheduling (meeting milestones), and
            business relations (customer satisfaction). Details are in appendix A.

Noteworthy Achievements
            OAM implemented the Balanced Scorecard Program in fiscal year 2011 for the
            EPA Acquisition Systems. The internal control program works in conjunction
            with the Balanced Scorecard Program to provide the necessary checks and
            balances to ensure that procurement documents are of the highest quality and in
            compliance with applicable laws, regulations and policies. The Balanced
            Scorecard Program also seeks to include measures of quality, cost, timeliness,
            customer service and employee alignment with skills, to provide an in-depth,


13-P-0398                                                                                     3
            predictive performance management system. Even though the EPA implemented
            specific measures in the Balance Scorecard Program to ensure that past
            performance information is timely and included in the Contractor Performance
            Assessment Reporting System, the specific measures did not start until the end of
            fiscal year 2012.

Scope and Methodology
            We conducted this performance audit in accordance with generally accepted
            government auditing standards. Those standards require that we plan and perform
            the audit to obtain sufficient, appropriate evidence to provide a reasonable basis
            for our findings and conclusions. We believe that the evidence obtained provides
            a reasonable basis for our findings and conclusions based on our audit objectives.

            We conducted the audit from May 2012 to June 2013 at OTOP, OAM and the
            Office of the Chief Financial Officer’s Research Triangle Park Finance Center.
            During the audit, we obtained the top five WCF data processing service contracts
            and reviewed the contract with the highest reported obligated amount to
            determine whether the EPA was effectively managing WCF contracts. We limited
            our review to auditing the EPA’s contract administration for the CTS EPW08034
            contract because it accounted for approximately $72 million (60 percent) of the
            approximately $120 million in the EPA WCF contracts (see figure 1).
            We reviewed memoranda, regulations, guides and other documents to gain an
            understanding of the requirements and processes used to provide effective
            contract administration. The specific documents reviewed included:

                  Office of Management and Budget memoranda. 

                  Office of Federal Procurement Policy Memoranda, and Guides. 

                  FAR Parts 1, 4, 16, 32, 37, 42 and 46. 

                  Environmental Protection Agency Acquisition Regulations Sections 

                   1509.170 and 1542.15 

                  The EPA CMM. 


            Appendix C includes relevant recordkeeping criteria.

            We looked at OMB, FAR, agency polices and guidance for contract and contract
            administration requirements. We discussed with OAM, OTOP and Research Triangle
            Park Finance Center staff their procedures used to manage contractor performance,
            invoices, monthly progress reports and other needed contract administration
            functions used for effective internal controls. We also discussed other background
            information that pertains to WCF procedures and associated key players. The WCF
            background information obtained involved the systems used, documents managed
            and other WCF funding procedures used. Other WCF key players included OTOP’s
            Director of Customer Business Support Staff, who oversees WCF workload,
            collections, billings and reports. The director also interacts with WCF customers who



13-P-0398                                                                                    4
            provide feedback on service quality. We reviewed contract invoices, checklists,
            monthly progress reports, QASPs, prior audit reports, award fee determination
            reports, as well as other supporting documentation, to determine whether the EPA
            conducted effective contract administration.

            Prior Agency OIG Reports

            The EPA OIG issued the following reports with findings related to CTS contract
            administration:

            Report No. 10-P-0194, EPA Needs to Improve Management Practices to
            Ensure a Successful Customer Technology Solutions Project, August 23, 2010.
            The agency’s lack of acquisition planning led to questions involving:

                  The quality of the helpdesk supporting the project.
                  A quality management program that was not finalized.
                  Key business processes to support ongoing operations not being defined.
                  Vacant leadership positions needed to facilitate communication and
                   coordination with customers about CTS equipment deployments.

            We did not follow up on the contractor providing helpdesk support on the project
            because the EPA cancelled the contract. We did follow up on areas that affected
            contract administration. We found the following:

                  The EPA finalized the QASP.
                  The EPA ensured the contractor defined key business process documents.
                  The EPA filled vacant leadership positions.

            Report No. 11-P-0705, EPA Contract Oversight and Controls Over Personal
            Computers Need Improvement, September 26, 2011. The EPA paid the CTS
            contractor a total of $489,734 over an 11-month period for 3,343 seats. A standard
            seat includes a leased computer with accessories and technical support, which was
            not ordered by the agency during the aforementioned period. We recommended that
            the EPA should improve controls for updating data in the fixed assets database, and
            should retain property acquisition documentation in accordance with retention
            requirements. In addition, we recommended that the agency should have a
            separation of duties in its property staff positions and consider assigning permanent
            property positions. We did not follow up on this condition because the EPA
            decided not to exercise the contract option award terms because the contractor had
            not met the required performance metrics. However, during this review, we found
            similar internal control issues in terms of updating databases, including:

                  Retaining appropriate documentation. 

                  Maintaining permanent contract positions (see the following chapters).





13-P-0398                                                                                      5
                                          Chapter 2

    Ineffective Administration of Contractor Performance
                 OAM did not effectively evaluate cost outcomes and report any of the four
                 required annual contractor performance evaluation reports in the Past
                 Performance Information Retrieval System between September 2009 and
                 March 2013. OMB and FAR require agencies to assess cost outcomes, while the
                 FAR and EPAAR require agencies to report on contractor performance
                 information in the PPIRS. Deficiencies occurred because of insufficient guidance
                 and inadequate communications during contractor performance system changes
                 and personnel reassignments. Consequently, the EPA did not effectively monitor
                 costs to ensure that the contract, with expenses at approximately $85 million,
                 achieved the best possible cost outcomes and value. In addition, the EPA did not
                 provide other federal acquisition community users with contractor past
                 performance data so that other federal government agencies can make effective
                 management decisions on whether to conduct business with the same contractor.

OMB, FAR and EPAAR Provide Guidance for Managing Contractors
                 OMB and the FAR established requirements for evaluating contractor
                 performance for cost outcomes. OMB policies state that evaluation factors be
                 directly linked to cost performance results.3 Another OMB policy4 addresses the
                 evaluating of cost controls based on the contractor’s:

                        Ability to perform within or below budget.

                        Use of cost efficiencies. 

                        Relationship of negotiated costs to actual costs. 

                        Submission of reasonably priced change proposals. 

                        Providing current, accurate and complete billing in a timely manner. 


                 This policy addressed the assessing of the contractor’s effectiveness in
                 forecasting, managing and controlling contract cost. This policy also stated cost
                 controls are needed for fixed price contracts. The FAR5 requires that, for incentive
                 fee type and time and materials contracts, evaluating factors be linked to cost
                 performance results and cost controls, respectively.

                 The FAR and EPAAR regulations establish requirements for reporting contractor
                 performance information. Specifically, the FAR6 requires that agencies prepare an
                 annual evaluation of contractor performance that closely parallels the award fee

3
  OMB memorandum Appropriate Use of Incentive Contracts, December 4, 2007; and OMB memorandum, 

Improving Government Acquisition, dated July 29, 2009, 

4
  OMB policy Best Practices for Collecting and Using Current and Past Performance Information, May 2000. 

5
  FAR Subsections 16.401(e)(2), 16.402-1(a) and 16.601(c)(1).

6
  FAR Subpart 42.1500, Subsections 42.1503(b), and 42.1503(c).



13-P-0398                                                                                                    6
                  determinations and submit past performance information electronically to the
                  PPIRS in accordance with agency procedures. The agency’s acquisition
                  regulations7 require the agency to use the National Institutes of Health’s
                  Contractor Performance System, subsequently replaced by CPARS, to record
                  contractor performance information. The systems collect and transmit information
                  into the PPIRS.

Performance Metrics and Standards Not Linked to Cost Outcomes
                  The EPA’s 44 performance metrics and standards identified in the Performance
                  Requirements Summary for the EPW08034 CTS contract did not include cost
                  outcomes as required by the FAR and addressed in OMB guidance. The EPA used
                  the 44 performance metrics and standards to evaluate contractor performance on
                  the CTS contract and determine whether the contractor would receive an award
                  fee. The QASP identifies the procedures used by the QAM and quality assurance
                  evaluator to review contractor performance based on the Performance
                  Requirement Summary and its 44 performance metrics and standards. The QAM
                  assembled biannual reports that identified and rated each of the 44 performance
                  metrics and standards used to determine whether the contractor would be granted
                  an award fee. Appendix A identifies the 44 metrics and standards that relate to
                  quality, schedule and customer satisfaction outcomes. The EPA did not include
                  any metrics and standards relating to cost outcomes as required by the FAR. The
                  44 performance metrics and standards did not include the OMB-identified
                  definitions for cost controls that cover:

                          The contractor’s ability to perform within or under budget. 

                          Use of cost efficiencies. 

                          Relationship of negotiated costs to actual costs. 

                          Submission of reasonably priced change proposals. 

                          The contractor providing current, accurate and complete billing in a 

                           timely manner.

                  Also, the CTS contract performance work statement identified a requirement for
                  the contractor to analyze potential cost savings from new technologies and
                  business process changes. FAR Subsection 37.602(b) (3) requires agencies to
                  “rely on the use of measurable performance standards and financial incentives in a
                  competitive environment to encourage competitors to develop and institute
                  innovative and cost-effective methods of performing the work.” The EPA did not
                  use the 44 performance metrics and standards or incentives to encourage
                  competitors to develop and institute innovative and cost-effective methods of
                  performing the work per FAR requirements.

                  As part of the EPA Balanced Scorecard Program approach, OAM identified
                  measures for cost control in contractor performance evaluations as principles

7
    EPAAR Subpart 1542.1503(a) (CPARS), which replaced 1509.170-3(c) and 5(c) (NIH-CPS).


13-P-0398                                                                                           7
            needed to improve its acquisition process. However, the EPAAR and CMM did
            not require that for incentive fee and time and material type contracts the
            performance evaluation factors include cost outcomes. In accordance with the
            December 2007 OMB memorandum, chief acquisition officers and senior
            procurement executives review agency’s acquisition policies to ensure that incentive
            fees are linked to acquisition outcomes such as cost, schedule, and performance
            results. Current EPA policy does not address this requirement. Even though this
            contract has ended, having this requirement will ensure that existing and future
            contracts will contain the required cost outcome metrics and standards.

            By not linking the award fee to cost outcomes as required, the EPA did not
            effectively hold the contractor accountable for cost inefficiencies and
            inaccuracies. We found examples where the contractor billed for services that
            were not rendered. For example, Table 1 identifies examples of 13 invoices
            totaling nearly $1 million that the agency suspended for inaccurate billings.
            Suspended contractor invoice payments due to inaccurate billings indicate
            potential problems exist with contract cost.

            Table 1: Invoices suspended
                        Suspended
             Invoice     amounts     Bill date                 Reason for suspension
                1          $2,734.41 07/20/10	      Units not deployed. Invoice is inaccurate
                                                    (data does not support the billable amount
                                                    for the time period).
                2           3,125.04     10/26/10   Units not deployed.
                3         117,775.00     08/13/09   Dispute over number of printers installed.
                4           4,330.57     08/21/09   Fifteen student/intern seats deployed on a
                                                    Saturday. User cannot accept deployment on
                                                    Saturday. Need to count these seats next
                                                    month.
                5         281,050.00     10/13/09   Dispute over printers installed.
                6         391,650.00     11/20/09   Dispute over printers installed.
                7           3,767.62     08/12/10   Units not deployed.
                8          53,082.25     02/27/12   Work not completed
                9          15,961.82     11/13/12   Typo error on prior payment.
               10                                   This invoice indicates a double billing for the
                            29,784.47    05/21/12
                                                    same service.
               11           9,674.35     08/12/10   Units not deployed.
               12             130.21     10/22/10   Units not deployed.
               13          27,433.72     07/06/12   Questioned billing method of rounding.
              Total      $940,499.46
            Source: OIG data analysis.

            In addition, since FAR requires cost outcomes from past contractor performance
            be inputted into PPIRS, the EPA should have evaluated the cost outcome based on
            contractor performance standards. As a result, the EPA cannot sufficiently inform
            other federal agencies about the contractor’s cost performance.

            Even though the agency did not award the contractor an award fee, there could
            have been additional corrective actions implemented by having cost outcomes tied


13-P-0398                                                                                             8
                to contractor performance standards. This would have provided additional
                enforcement measures to prevent recurring or escalating problems. According to
                the QASP, the QAM has the responsibility to monitor the contractor’s
                performance to control cost and take corrective actions. The performance work
                statement requires the contractor to look for cost savings through enhanced
                technology. The EPA did not tie the requirement to performance standards so the
                EPA did not use this requirement for determining an award fee. Including cost
                outcomes could have driven the overall ratings up if the contractor identified
                savings and could have driven the overall ratings further down if the contractor
                did not identify savings. Such actions would facilitate a determination as to
                whether the contractor is performing to meet the overall contract needs and
                providing the most value for the government.

Contractor Performance Evaluation Reports Not Completed
                The EPA did not complete the four required annual contractor past performance
                evaluation reports. The EPA completes contractor past performance evaluations
                when an agency official enters the finalized reports in CPARS. Prior OIG reports
                identified similar issues where the EPA did not complete the evaluations or report
                past performance information into required systems in a timely fashion.8 Both the
                FAR and EPAAR require the agency to conduct and report the evaluations in the
                past performance system after the end of each 12-month contractor performance
                period. The initial EPAAR Subpart 1509.170, dated 2002, required the EPA to
                use the NIH-CPS to report past performance information within 90 business days
                from the date the contracting officer initiates the evaluation. As of September
                2010, the new EPAAR Subsection 1542.1502 replaced Subpart 1509.170, and
                requires the use of the Department of Defense’s CPARS [see prior Footnote 7].
                CPARS requires reporting of past performance information within 120 days.
                Table 2 identifies the specific contractor past performance data not timely entered
                into the system.

                Table 2: Timeliness of Contractor Performance Evaluations for EPW08034
                                                                                                  # Calendar Days
                                                                                                  Past Evaluation
                                                                                                      Due Date
                                        Reporting       Evaluation           Interim/final        (04/01/2013=OIG
                 Evaluation period      system *         Date due            evaluations            cut-off date)
                 10/01/08–09/30/09       NIH-CPS       02/11/10 (1)          Not prepared                1145
                 10/01/09–09/30/10       CPARS         02/11/11 (1)          Not prepared                780
                 10/01/10–09/30/11       CPARS         02/10/12 (1)          Not prepared                416
                 10/01/11–09/30/12       CPARS         01/28/13 (2)          Not prepared                 63
                *Past performance information in NIH-CPS/CPARS is automatically transmitted to the PPIRS.
                (1) 95 business days allowed for years 1-3's evaluation process. (2) 120 calendar days allowed for
                evaluation process for year 4 per new EPAAR Subsection 1542.1502.

8
 Report No. 10-R-0113, EPA Should Improve Its Contractor Performance Evaluation Process for Contractors
Receiving Recovery Act Funds, issued April 26, 2010; and Report No. 12-P-0417, Weaknesses in EPA’s
Management of the Radiation Network System Demand Attention, issued April 19, 2012.


13-P-0398                                                                                                        9
                 Source: OIG analysis of contractor performance evaluations as of 04/01/2013.
                 The 44 performance metrics and standards (see appendix A) identify the
                 performance categories quality, timeliness and business relations. Quality
                 assurance evaluators review contractor performance based on the metrics and
                 standards and submit semiannual reports that contain needed information to input
                 into the CPS or CPARS, but the EPA did not use such information to complete
                 contractor past performance evaluation reports in the systems.

                 The EPA did not have the contractor performance information in PPIRS because
                 of inadequate communication during the NIH-CPS and CPARS transitions and
                 personnel reassignments. NIH-CPS and CPARS are the official systems used by
                 the agency to download past performance information into PPIRS. Even though
                 the FAR required contractor performance information to be entered into PPIRS,
                 the EPA did not provide clear guidance to enforce the reporting of contractor
                 information for existing contracts. The OAM intranet website stated that the
                 CPARS would be used for new solicitations issued on October 3, 2011, or later.
                 In addition, OAM’s Intranet also emphasized EPAAR changes for new
                 solicitations but did not require the EPA to input contractor performance
                 information into CPARS for existing contracts. The Interim Policy Notice 10-03
                 issued by OAM in March 2010 also emphasizes that solicitations issued, contracts
                 awarded and options exercised after May 14, 2010, are to follow the EPAAR
                 deviations to report contractor performance information in CPARS. The EPAAR
                 deviations did not require existing contracts to report contractor performance
                 information. Since the CTS contract, awarded in 2008, was an active contract at
                 the time and EPA did not provide clear guidance on existing contracts, the EPA
                 did not report on four contractor performance evaluation periods (see table 2
                 above).

                 In addition, when the EPA’s OAM and OTOP reassigned staff, these offices did
                 not communicate adequate procedures to ensure reporting of contractor
                 performance information. The initial QAM stated she asked the CO about putting
                 information into NIH-CPS, but the CO said that, since the EPA changed systems,
                 they should do nothing. One PO, assigned to the contract for a few months, did
                 not fully understand the CPARS assessment process and did not have access to
                 the CPARS. One CO stated that she transitioned out before the end of the 12-
                 month evaluation period. Another CO said she requested the PO to assess the
                 contractor performance but received no response from the PO. With many
                 personnel reassignments (see appendix B), the EPA has no effective procedure to
                 communicate what CPARS evaluations have or have not been done. The
                 Department of Defense CPARS policy guide9 states an interim evaluation in
                 CPARS is required upon a significant change within the agency provided 6
                 months of performance has occurred. The changes include change in program or

9
  The PPIRS website, www.ppirs.gov, and OMB memorandum, Improving Contractor Past Performance
Assessments: Summary of the Office of Federal Procurement Policy’s Review, and Strategies for Improvement,
dated January 2011, acknowledges the DOD policy as guidance for federal agencies on contractor performance
information. The DOD policy was subsequently revised in June.


13-P-0398                                                                                                    10
            project management responsibility and transfer of a contract to a different
            contracting activity. It also states that an interim evaluation in CPARS shall be
            started prior to transfer of assessing official duties from one individual to another,
            to ensure continuity.

            If COs did not report the contractor performance information in the past
            performance systems for all contract performance periods, performance reports
            are not available to inform the EPA and other federal agencies about the
            contractor’s performance. According to the OMB memorandum identified in the
            footnote 9, this information is used in the source selection process to assist other
            agencies in assessing past performance when making future acquisitions. Without
            timely availability of contractor past performance information that includes
            information on contract cost, the EPA and other federal agencies may
            inadvertently award contracts to contractors that have a history of poor
            performance on current or past government contracts. Since the EPA did not
            provide an award fee throughout the entire life of this 4-year performance-based
            contract, there may be concerns with the contractor performance that should be
            reflected and available for consideration by other agency offices and government
            agencies. An OMB memorandum, Clarifying Chief Acquisition Officer Roles and
            Responsibilities, dated October 2012, states that chief acquisition officers “. . .
            should lead efforts to, among other things, improve the value of contractor past
            performance assessments and increase the transparency of contractor business
            integrity data so that the Federal Government only does business with reputable
            firms.”

Conclusion
            Cost controls and contractor performance information have been the focus of
            OMB memoranda and the Balanced Scorecard Program addressed in chapters 1
            and 2 above. The EPA did not evaluate cost outcomes and report on any required
            contractor performance information as required. Having effective cost controls
            and past contractor performance information for this contract valued at
            approximately $85 million will help the EPA assure that the government gets
            what it paid for. It will also provide transparency so that other federal government
            agencies can make effective management decisions on whether to conduct
            business with the same contractor.

Recommendations
            We recommend that the assistant administrator, Office of Administration and
            Resources Management:

               1.	 Update the policies to include procedures that would ensure that, for all
                   incentive and time and material contracts, contract performance metrics
                   and standards include cost outcomes.



13-P-0398                                                                                       11
               2.	 Update internal programs that provide oversight and accountability to
                   ensure that, for all incentive type and time and material contracts, the EPA
                   performance metrics and standards link to cost outcomes.

               3.	 Require OTOP, in conjunction with OAM, to review contractor
                   performance reports generated per the QASP. Require OTOP to
                   coordinate all actions taken with the COs and POs and require the COs to
                   input contractor performance information into CPARS.

               4.	 Require COs to input interim reports into CPARS prior to their
                   reassignments.

Agency Comments and OIG Evaluations
            OARM did not concur with recommendations 1 and 2, but concurred with
            recommendations 3 and 4. However, recommendations 3 and 4 are unresolved
            pending receipt of corrective actions that correspond with the causes and
            recommendations.

            OARM disagreed with recommendations 1 and 2. OARM stated EPA does not have
            to control cost or manage the contract-based cost incentives for this WCF contract
            because the contract has fixed rates so it is a fixed unit price contract. FAR
            Subsections 16.202-1 and 203-1(b) requirements state that for fixed price contracts,
            the award fee or incentive is based solely on factors other than costs; however, this
            contract’s requirements and data indicated a contract type other than a fixed price
            contract. FAR Subsection 16.201(b) states “time and material contracts and labor
            hour contracts are not fixed price contracts.” The EPA’s Acquisition System and the
            Federal Procurement Data System identified this contract to be a time and materials
            contract. The contract also identified changes to fixed hourly rate and negotiated
            hours throughout the contract 4-year time period and identified fixed rate and other
            elements that is consistent with FAR Subpart 16.6 for time and materials contracts.
            Recommendations 1 and 2 also reflect on the performance standards having cost
            outcomes and the decision to award a fee based on cost outcomes. FAR Subsection
            1.102-2 states that performance standards satisfy the customer in terms of cost,
            quality and timeliness of delivered product or service, so performance standards as
            well as the decision to award a fee should link to cost outcomes.

            OARM stated during the exit conference that issues found and addressed under
            recommendations 3 and 4 relate to inadequate management oversight. Based on the
            causes addressed above, we found no EPA procedures in place to direct the actions
            of inputting interim performance information into CPARS when there are staff
            reassignments. This detailed direction would assist management in providing the
            oversight to ensure the contractor performance information is input into CPARS. In
            addition, this is a recurring issue because prior audits recommended improvements
            to management oversight that the agency agreed to yet the conditions still exist (see
            footnote 8). As a result, we concluded that this further direction is needed.


13-P-0398                                                                                    12
                                     Chapter 3

            Inadequate Contract Records Management
              The official contract files maintained by COs, POs and the QAM were missing
              required official documents. These missing documents were:

                    Thirty-four of 48 monthly progress reports. 

                    A post award conference meeting document. 

                    Three of four CO annual contract invoice reviews. 

                    A financial monitoring review report and the CO’s applicable responses. 

                    Initial or finalized QASPs. 

                    Six of eight letters sent to the contractor providing its performance ratings. 


              FAR Subsection 4.802 and agency policies require that contract files be
              maintained under central control to ensure effective documentation, safeguarding
              and efficient retrieval. These required documents were missing due to ineffective
              oversight of the policies and procedures in place to ensure the easy retrieval of
              official documents during the many staff reassignments. Because the EPA did not
              maintain adequate files on an approximately $85 million contract, the agency
              could not provide assurance that the EPA made informed business decisions to
              ensure contractors met contract requirements and the EPA complied with criteria.
              As a result, the EPA cannot also provide assurance that the government
              effectively got what it paid for.

Federal and Agency Guidance on Records Management
              FAR Subsection 4.801, General, states documentation in the files shall be
              sufficient for purpose of providing a complete background for informed decisions
              and furnishing essential facts in the event of litigations or congressional inquiries.
              FAR Subsection 4.802, Contract Files, paragraphs (c) and (d), states:

                     Files must be maintained at organizational levels that ensure:
                     (1) Effective documentation of contract actions; (2) Ready
                     accessibility to principal users; (3) Minimal establishment of
                     duplicate and working files; (4) The safeguarding of classified
                     documents; and (5) Conformance with agency regulations for file
                     location and maintenance. If the contract files or file segments are
                     decentralized (e.g., by type or function) to various organizational
                     elements or to other outside offices, responsibility for their
                     maintenance must be assigned. A central control and, if needed, a
                     locator system should be established to ensure the ability to locate
                     promptly any contract files.




13-P-0398                                                                                         13
            The EPA policies and procedures emphasize the need for creating and managing
            the records necessary to document the agency’s official activities and actions. The
            following agency policies are applicable.

               	 EPA Classification No. CIO 2155, EPA Records Management Policy,
                  requires that all agency employees are responsible for creating, managing
                  and filing records for safe storage and efficient retrieval.
               	 The EPA Records Management Manual maintains that agency staff must
                  capture records by filing, storing or otherwise systematically maintaining
                  them in a recordkeeping system to ensure information is accessible to all
                  authorized staff, including related records stored on special media or in
                  different locations.
               	 EPA Record Series, Schedule 202, NARA Disposition No. N1-412-06-
                  6/5, calls for COs and contracting officer representatives to work together
                  to determine who is responsible for maintaining specific documents to
                  minimize duplication while still providing an adequate audit trail (see
                  appendix C for more criteria).

Agency Official Contract Files Missing Required Documents
            OAM COs and OTOP POs had inadequate records management based on FAR,
            EPAAR and the EPA policy. The official contract file and files maintained by
            each CO and PO were missing the following:

                  Thirty-four of 48 monthly progress reports. 

                  A post award conference meeting document. 

                  Three of four CO annual contract invoice reviews. 

                  A financial monitoring review report and the CO’s applicable responses. 

                  Initial or finalized QASPs. 

                  Six of eight letters sent to the contractor providing its performance ratings. 


            In addition, the EPA did not centrally control the documents that did exist, as
            required by the FAR Subsection 4.802(d), as stated above. EPA’s OAM
            procedures did not establish a requirement for a central repository. The EPA’s
            various COs, POs and QAMs individually maintained selected documents. For
            example, the COs did not maintain the finalized QASP in the official contract file.
            The PO maintained the finalized QASP separately in their office computer. Of the
            14 monthly progress reports received, the current CO provided only 11, one PO
            provided two, and another PO provided one. These monthly progress reports
            assist in determining whether the contractor met contract requirements. We asked
            the current CO for contractor performance evaluations, but he could not provide
            any. Two different COs provided six award fee evaluation reports. The evaluation
            reports assist in determining whether EPA complied with FAR and EPAAR
            requirements for measuring contractor performance.




13-P-0398                                                                                     14
            The OIG has noted this problem with the agency’s administration of its contracts
            during multiple audits. The EPA’s OAM Balanced Scorecard Program also
            identified similar issues. Table 3 lists the OIG reports and the OAM document.

            Table 3: Related audit reports
                               Report                                   Finding
             EPA OIG 11-P-0705, EPA Contract          We found similar internal control issues in
             Oversight and Controls Over Personal     terms of updating databases, retaining
             Computers Need Improvement               appropriate documentation, and
                                                      maintaining permanent contract positions.
             EPA OIG draft report, Improvements       Staff did not assure adequate data
             Needed in EPA’s Smartcard Program to     maintenance and that incomplete contract
             Ensure Consistent Physical Access        files resulted from issues within both the
             Procedures and Cost Reasonableness       project management and contract
                                                      management offices.
             OAM Balanced Scorecard                   An internal audit identified contract
                                                      documentation issues.
            Source: OIG analysis.

            The agency’s inadequate record management persists because OAM and OTOP
            did not have adequate oversight of policies and procedures in place to ensure the
            easy retrieval of official documents during the many staff reassignments (see
            appendix B). OAM and OTOP procedures did not hold responsible personnel
            accountable for adequate records management during CO and PO personnel
            reassignments. The CO and PO did not perform an inventory of required
            documents to ensure the prior CO and PO maintained documentation. In addition,
            OAM and OTOP did not implement procedures to require the transference and
            maintenance of data in a centralized location or key locator system to identify
            where documents are located during CO and PO personnel changes. The FAR
            Subsection 4.802(d) states: “A central control and, if needed, a locator system
            should be established to ensure the ability to locate promptly any contract files.”

            As a result of ineffective records management, files cannot be readily accessible
            to principal users who are required to facilitate and ensure the effective
            accomplishment of contract requirements and contract closeout. An overall
            analysis of all documented monthly progress reports and annual invoice reviews
            would have provided a better indication of the contractor achieving contract
            requirements. In addition, the EPA may be unable to make effective management
            decisions and provide reasonable assurance that the agency complied with
            applicable regulations. If the CO centrally maintained all contractor performance
            evaluations, the CO would have had past performance information readily
            available to ensure compliance with FAR and EPAAR (see chapter 2).
            Consequently, the EPA cannot reasonably make informed decisions based on
            missing documents and ensure the government got what it paid for.




13-P-0398                                                                                       15
Conclusion
            Without complete and organized contract files, the EPA is unable to make
            effective management decisions and provide reasonable assurance that the
            contractor met contract requirements and the EPA complied with applicable
            regulations. Although the contract has ended, the EPA needs to maintain adequate
            records to make effective and informed decisions on contractor past performance
            for contract closeout purposes and in the event of litigation or congressional
            inquiries. Since the agency continues to acquire those same services, records
            would provide needed lessons learned to improve management of the new
            contracts.

Recommendations
            We recommend that the assistant administrator, Office of Administration and
            Resources Management:

               5.	 Develop OAM procedures to require that, before there are personnel
                   reassignments, COs, POs and QAMs perform an inventory of required
                   documents in their possession or in the official contract file to ensure
                   maintenance of accurate and complete records.

               6.	 Update internal procedures and programs to include a process to transfer
                   all required documents to the newly appointed COs and POs or establish a
                   key locator system identifying the location of required contracting
                   documents.

Agency Comments and OIG Evaluations
            OARM concurred with recommendations 5 and 6, but the recommendations are
            unresolved pending receipt of corrective actions that correspond with the causes
            and recommendations.

            OARM stated during the exit conference that issues found and addressed under
            recommendations 5 and 6 should relate to a management oversight issue, yet we
            found no EPA procedures in place to direct the actions of record management
            when there are staff reassignments or new appointments. The criteria addressed in
            appendix C does not address the local procedures when there are CO, PO and
            QAM reassignments and new appointments. In addition, this is a recurring issue
            because prior audits recommended improvements in records management that the
            agency agreed to yet the conditions still exist (see table 3 above). As a result, we
            concluded that this further direction is needed.




13-P-0398                                                                                      16
                                  Status of Recommendations and
                                    Potential Monetary Benefits

                                                                                                                                    POTENTIAL MONETARY
                                                      RECOMMENDATIONS                                                                BENEFITS (in $000s)

                                                                                                                        Planned
    Rec.    Page                                                                                                       Completion   Claimed    Agreed-To
    No.      No.                           Subject                            Status1         Action Official             Date      Amount      Amount

     1        11    Update the policies to include procedures that              U        Assistant Administrator,
                    would ensure that, for all incentive and time and                   Office of Administration and
                    material contracts, contract performance metrics                     Resources Management
                    and standards include cost outcomes.

     2        12    Update internal programs that provide oversight             U        Assistant Administrator,
                    and accountability to ensure that, for all incentive                Office of Administration and
                    type and time and material contracts, the EPA                        Resources Management
                    performance metrics and standards link to cost
                    outcomes.

     3        12    Require OTOP, in conjunction with OAM, to review            U        Assistant Administrator,
                    contractor performance reports generated per the                    Office of Administration and
                    QASP. Require OTOP to coordinate all actions                         Resources Management
                    taken with the COs and POs and require the COs
                    to input contractor performance information into
                    CPARS.

     4        12    Require COs to input interim reports into CPARS             U        Assistant Administrator,
                    prior to their reassignments.                                       Office of Administration and
                                                                                         Resources Management

     5        16    Develop OAM procedures to require that, before              U        Assistant Administrator,
                    there are personnel reassignments, COs, POs and                     Office of Administration and
                    QAMs perform an inventory of required documents                      Resources Management
                    in their possession or in the official contract file to
                    ensure maintenance of accurate and complete
                    records.

     6        16    Update internal procedures and programs to                  U        Assistant Administrator,
                    include a process to transfer all required                          Office of Administration and
                    documents to the newly appointed COs and POs or                      Resources Management
                    establish a key locator system identifying the
                    location of required contracting documents.




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is unresolved with resolution efforts in progress




13-P-0398                                                                                                                                             17
                                                                                                      Appendix A

       Contract Performance Requirements Summary
                      (Performance Metrics and Standards)
    Applicable
performance work
    statement                                                Performance                               Frequency of
sections/section #   ID                 Metric                standard      Surveillance method        surveillance
                      1   Percentage of all requests            90%        Monitoring monthly data      As needed
                          responded to and routed within
                          15 minutes of submission to the
                          Service Request Interface during
                          core hours
                     2    Percentage of all requests            99%        Monitoring monthly data      As needed
                          responded to and routed within
                          60 minutes of submission to the
                          SRI during core hours
 Service request      3   Percentage of tickets correctly       75%        Monitoring monthly data       Monthly
     interface            routed or escalated on initial                   and Customer Support
  (Section 2.1.1)         attempt                                          Representative input
                      4   Percentage of tickets correctly    95% (months   Monitoring monthly data       Monthly
                          routed or escalated on second        05-28)      and Customer Support
                          attempt                                          Representative input
                                                             98% (months
                                                               29-100)
                      5   Percentage of end-user requests       98%        Monitoring monthly           As needed
                          (requiring more than 1 business                  sample
                          day to resolve) receiving daily
                          updates
                      6   Percentage of assets accurately       98%        Planned sample: cross         Periodic
                          identified in tracking system                    reference random sample
                                                                           of assets with tracking
                                                                           system; cross reference
                                                                           random sample of
                                                                           tracking system with
                                                                           assets
                     7    Percentage of unaccounted assets      99%        Planned sample: audit         Periodic
                          accurately accounted for and                     sampling of missing
                          recorded in tracking system or                   assets records with
                          identified as missing within 30                  information in the
Asset management          days of previous surveillance                    Remedy system and
  (Section 2.1.2)         check                                            Ebusiness
                     8    Percentage of accurate updates        90%        Evaluate moves, adds,         Monthly
                          made in tracking system within                   and changes cross-
                          1 business day of change being                   referenced against date
                          made                                             of update made to the
                                                                           asset tracking system
                     9    Percentage of accurate updates        99%        Evaluate moves, adds          Monthly
                          made in tracking system within                   and changes cross-
                          2 business days of change being                  referenced against date
                          made                                             of update made to the
                                                                           asset tracking system
                     10   Percentage of accounts in             90%        Monitoring of monthly         Monthly
                          compliance with the EPA policy                   data provided by Service
                          and standards                                    Provider
 Account access
and management                                                             Monitor monthly Bind
 (Section 2.1.2.3)                                                         view reports
                     11   Percentage of accounts                99%        Monitoring of monthly         Monthly
                          established or routed to proper                  data provided by Service
                          authority within 4 hours                         Provider




13-P-0398                                                                                                           18
    Applicable
performance work
    statement                                                      Performance                              Frequency of
sections/section #   ID                   Metric                    standard      Surveillance method       surveillance
                     12     Percentage of systems that are            90%        Monthly inspection of        Monthly
                            patched and have latest virus                        data
                            definition files by CSIRC required
                            date
                     13     Percentage of systems that are            99%        Monthly inspection of        Monthly
                            patched have latest virus definition                 data
                            files within 10 business days of
                            CSIRC required date
                     14     Percentage of incidents that are          90%        Random sampling              Monthly
                            reported to ISO and contracting
                            officer technical representative
                            within 4 hours of incident

     Security        15     Percentage of incidents that are          99%        Random sampling              Periodic
  (Section 2.1.3)           reported to ISO, CSIRC and
                            COTR within 2 days of incident
                     16     Percentage of incidents of                90%        Random sampling              Periodic
                            personally identifiable information
                            loss that are reported to ISO,
                            CSIRC and COTR within 1 hour of
                            incident
                     17     Percentage of incidents of                99%        Random sampling              Periodic
                            personally identifiable information
                            loss that are reported to ISO,
                            CSIRC and COTR within 4 hours
                            of incident
                     18     Percentage of contractor staff who        95%        Random Monitoring          Once a year
                            complete required training on time
                     19     Percentage of hardware installs           80%        Review monthly data          Monthly
                            scheduled within 4 hours of                          from SP and validation
                            submission of approved request to                    through analysis of data
                            the SRI for standard                                 from various sources
                            desktops/laptops or upon receipt
                            of other hardware
                     20     Percentage of hardware installs           99%        Review monthly data          Monthly
                            scheduled within 2 business days                     from SP and validation
                            of submission of approved request                    through analysis of data
    Hardware                to the SRI for standard desktops/                    from various sources
   provisioning             laptops or upon receipt of other
 (Section 2.2.1.1)          hardware
                     21 	   Percentage of hardware installed          90%        Review monthly data          Monthly
                            by the scheduled install date and                    from SP and validation
                            time; includes loaner hardware                       through analysis of data
                                                                                 from various sources
                     22 	   Percentage of hardware installed          99%        Review monthly data          Monthly
                            within 1 business day of schedule                    from SP and validation
                            date and time; includes loaner                       through analysis of data
                            hardware                                             from various sources




13-P-0398                                                                                                                19
    Applicable
performance work
    statement                                                   Performance                               Frequency of
sections/section #   ID                 Metric                   standard      Surveillance method        surveillance
                     23   Percentage of software installs          80%        Review monthly data           Monthly
                          scheduled within 4 hours of                         from SP and validation
                          submission of approved request to                   through analysis of data
                          the SRI for standard software or                    from various sources
                          upon receipt of other software
                     24   Percentage of software installs          99%        Review monthly data           Monthly
                          scheduled within 2 business days                    from SP and validation
                          of submission of approved request                   through analysis of data
     Software             to the SRI for standard software or                 from various sources
   provisioning           upon receipt of other software
 (Section 2.2.1.2)
                     25   Percentage of software installed         90%        Review monthly data           Monthly
                          by the scheduled install date and                   from SP and validation
                          time                                                through analysis of data
                                                                              from various sources
                     26   Percentage of software installed         99%        Review monthly data           Monthly
                          within 1 business day of schedule                   from SP and validation
                          date and time                                       through analysis of data
                                                                              from various sources
                     27   Percentage hardware collected            90%        Review monthly data           Monthly
                          and removed from desk within 1                      from SP and validation
                          business day of submission of                       through analysis of data
                          approved request to the SRI                         from various sources
                     28   Percentage hardware collected            99%        Review monthly data           Monthly
 Deprovisioning           and removed from desk within 2                      from SP and validation
  (Section 2.3)           business days of submission of                      through analysis of data
                          approved request to the SRI                         from various sources
                     29   Percentage of accounts                   99%        Review monthly data           Monthly
                          deactivated/disabled on scheduled                   from SP and validation
                          date                                                through analysis of data
                                                                              from various sources
                     30   Percentage of systems in              95%(months    Compare sample of             Monthly
                          compliance with the EPA policy          05-16)      selected CTS desktop
                          and standards                                       configurations to the EPA
                                                                98%(months    standard configuration to
   Operations                                                     17-100)     ensure compliance
  (Section 2.4)
                     31   Percentage of network printers           98%        Sampling of printer data      Monthly
                          fully operational
                     32   Percentage of preventative               90%        Inspection of reports         Periodic
                          maintenance schedules met
                     33   Percentage of password resets            90%        Sampling monthly data         Periodic
                          completed within 15 minutes after                   from remedy
                          notification of request
                     34   Percentage of password resets            99%        Sampling monthly data         Periodic
                          completed within 60 minutes after                   from remedy
                          notification of request
                     35   Percentage of hardware and               90%        Review monthly data           Monthly
   User support           software issues resolved or                         from SP and validation
  (Section 2.4.3)         reprovisioned within 4 hours of                     through analysis of data
                          submission of request for service                   from various sources
                          to the SRI
                     36   Percentage of hardware and               99%        Review monthly data           Monthly
                          software issues resolved or                         from SP and validation
                          reprovisioned within 2 business                     through analysis of data
                          days of submission of request for                   from various sources
                          service to the SRI




13-P-0398                                                                                                              20
    Applicable
performance work
    statement                                                        Performance                              Frequency of
sections/section #     ID                   Metric                    standard      Surveillance method       surveillance
                      37 	   Percentage of moves, changes,              90%        Review monthly data           Monthly
                             and upgrades completed within                         from SP and validation
                             4 hours of scheduled time                             through analysis of data
 Moves, changes,                                                                   from various sources
  and upgrades
 (Section 2.4.3.3)    38 	   Percentage of moves, changes,              99%        Review monthly data           Monthly
                             and upgrades completed within                         from SP and validation
                             2 business days of scheduled time                     through analysis of data
                                                                                   from various sources
                      39     Percentage of reports delivered in         90%        Monitoring submission         Monthly
                             accordance with reporting                             dates and quality of
    Reporting                schedule                                              reports
   (Section 3.5)      40     Percentage of reports delivered            99%        Monitoring submission         Monthly
                             within 5 business days of due date                    dates and quality of
                                                                                   reports
                      41 	   Percentage of customer                     95%        Review sampling of            Monthly
                             satisfaction surveys rated at an                      surveys
                             average overall score of 4.0 or
                             higher (scale of 0 - 5 with 5 being
                             highest)
                      42 	   Percentage of IT training class            95%        Review sampling of            Monthly
                             evaluations rated at an average                       surveys
                             overall score of 4.0 or higher
     Customer                (scale of 0 - 5 with 5 being highest)
    satisfaction
                      43 	   Percentage of requests properly            95%        Monitoring of monthly         Monthly
                             completed at first attempt	                           data sample and
                                                                                   Customer Support
                                                                                   Representative input
                      44 	   Percentage of requests properly            99%        Monitoring of monthly         Monthly
                             completed at second attempt	                          data sample and
                                                                                   Customer Support
                                                                                   Representative input


* Note: All 44 metrics relate to quality; Metrics 1, 2, 5, 7-9, 11, 13-29, 32-40 relate to timeliness; and Metrics 41 - 44
relate to business relations.

Source: CTS Contract Modification 6.




13-P-0398                                                                                                                  21
                                                                                                                                                                          Appendix B


                                      PO, CO and QAM Reassignments on CTS Contract
              
        A  M J    J    A  S  O  N  D  J     F  M A   M J     J     A S   O N D J    F   M A M J    J    A S   O N  D  J     F   M A   M J    J    A S   O N D J       F   M A M J    J    A S 
              


 P
                                                          1                              2                          3                             4                                  1*
 O
                                           5/1/08 ‐ 10/8/08              10/8/08 ‐ 3/11/09         3/11/09 ‐ 12/23/09            12/23/09 ‐ 6/21/11                   6/21/11 ‐ 9/30/12
    


        A  M J    J    A  S  O  N  D  J     F  M A   M J     J     A S   O N D J    F   M A M J    J    A S   O N  D  J     F   M A   M J    J    A S   O N D J       F   M A M J    J    A S 




 C                                                                  1                                   2                                   3                                         4
 O                                                   4/1/08 ‐ 3/11/09                    3/11/09 ‐ 6/2/10                   6/2/10 ‐ 11/14/11                        11/14/11 ‐ 9/30/12


              
                                                                                                                                                               D J
        A  M J    J    A  S  O  N  D  J     F  M A   M J     J     A S   O N D J    F   M A M J    J    A S   O N  D  J     F   M A   M J    J    A S   O N
                                                                                                                                                                  
                                                                                                                                                                      F   M A M J    J    A S 
              



 Q                                                                      1                                                                                       3
                                                                                                             2  
 A                                      vacant                    9/1/08 ‐                                                            vacant              4/8/12 ‐                           
                                                                                             7/3/11 ‐ 10/31/11 
 M                                                                3/31/11                                                                                  8/5/12

                              2008                                       2009                                  2010                                     2011                          2012

*This CO is the same person but serviced during a different period of time.
Source: OIG analysis.



        13-P-0398                                                                                                                                                                    22
                                                                                           Appendix C

                    Relevant Recordkeeping Criteria
The following table illustrates the criteria for government contract records.

 Regulation/policy/            Requirement/suggestion/recommendation
 instruction/guidance
 FAR Subsection 46.104 (c)     Maintain, as part of the performance records of the contract, suitable
                               records reflecting (1) the nature of government contract quality
                               assurance actions, including, when appropriate, the number of
                               observations made and the number and type of defects; and (2)
                               decisions regarding the acceptability of the products, the processes, and
                               the requirements, as well as action to correct defects.
 EPAAR Subsection              Copies of the evaluation, contractor response, and review comments
 1542.1503 (f)                 (if any) shall be retained as part of the evaluation, and hard copies shall
                               be contained in contract files.
 EPA Classification No. CIO    “All agency employees are responsible for (1) creating and managing
 2155, EPA Records             the records necessary to document the agency's official activities and
 Management Policy,            actions, including those records generated by the EPA contractors and
 paragraph 8(h)(2)(i)1&3       grantees, in accordance with the EPA recordkeeping requirements;….
                               (3) filing records for safe storage and efficient retrieval and maintaining
                               personal papers and non-record materials separately from official
                               agency records.”
 EPA Records Management        After creating or receiving a record, the EPA staff must capture it by
 Manual, Chapter 3             filing, storing or otherwise systematically maintaining it in a
                               recordkeeping system. The EPA offices must capture records in a
                               recordkeeping system that facilitates maintenance and use of the
                               records in an efficient and cost-effective manner.
 EPA CMM, paragraph            Contract files must document the contractor's performance to assist the
 7.3.5.5(E)                    agency in future procurements.
 EPA CMM, Section 11.2,        A properly documented file should be kept by both the PO/Delivery
 NOTE (11)                     Order PO and work assignment manager, along with copies of invoices
                               reviewed and approval documents. Relevant work assignment manager
                               issues should also be communicated and filed in the PO file. The CO
                               should file formal correspondence in the contract file.
 EPA CMM, Section 11.2,        The Research Triangle Park Finance Center maintains the official file
 NOTE (15)                     documenting invoice payments. The PO/Delivery Order PO and CO
                               maintain secondary files which generally include added data supporting
                               payment decisions, suspensions and disallowances.
 EPA CMM, Section 11.2,        (1) POs should update their financial records to reflect information
 paragraph 11.2.5.2 (E) -      concerning the invoice, the amount paid, and the account used; and
 Filing/Recordkeeping          (2) both the PO and work assignment manager should maintain files of
                               approved invoices and all associated documentation. These files will
                               eventually be sent to the CO at the completion of the contract. The PO
                               should consolidate PO/work assignment manager invoice files before
                               they are sent to the CO.




13-P-0398                                                                                               23
 Regulation/policy/                 Requirement/suggestion/recommendation
 instruction/guidance
 EPA CMM, Appendix 42.1,            Set-up a file system containing all relevant documentation including the
 (4) COR Work plan (a)              basic contract, list of contracting officer representatives under the
                                    contract, all correspondence and meetings related to the contract,
                                    technical direction, contract deliverables received and reviewed,
                                    payment file and other items that will provide an audit trail of the
                                    contract-level contracting officer representative’s actions under the
                                    contract. Maintain files in accordance with agency National Records
                                    Management Program policy. Guidance on maintaining the EPA Series
                                    202, Contract Management Records, is available on the Intranet at
                                    http://www.epa.gov/records/policy/schedule/sched/202.htm.
 EPA Record Series,                 COs and contracting officer representatives should work together to
 Schedule 202, NARA                 determine who is responsible for maintaining specific documents to
 Disposition No. N1-412-06-         minimize duplication while still providing an adequate audit trail.
 6/5, Contract Management
 Records

Source: OIG analysis of EPA data.




13-P-0398                                                                                                  24
                                                                              Appendix D

                Agency Comments on Draft Report




The Office of Administration and Resources Management and the Office of Environmental
Information have reviewed the draft OIG audit report OA-FY12-0494 and provide the following
comments and corrective actions in response to subject audit findings and recommendations.




13-P-0398                                                                                25
General Comments on Report

Page 2 - The OIG writes, “In April 2008, the EPA awarded an indefinite delivery/indefinite
quantity hybrid contract. This hybrid contract also contained provisions for performance-based
incentive fees and fixed hourly rates and material costs for a time and materials contract. This
contract required the contractor to provide technology services to approximately 12,000 program
office users scattered throughout 16 states and the District of Columbia.”

Contract EP-W-08-034 was a “Seat Service” contract which refers to all the desktop hardware
and software required for EPA employees to perform work responsibilities. In the contract, the
EPA estimated the maximum number of seats that may be required by the agency was 12,000,
and the contractor proposed a monthly fixed price of $169.75 per seat to ensure all EPA
employees – up to 12,000 - were provided with desktop hardware and software. Ninety percent
of contract spend used this pricing methodology – the Government both ordered and agreed to
pay a fixed amount per seat per month, thus accepting the pricing risk in the event the estimated
12,000 seat calculation was understated, and the contractor accepted the pricing risk in the event
the 12,000 seat calculation was overstated. The remaining 10% of the contract price was for
labor categories proposed by the contractor to support various potential contract tasks, such as
Disaster Recovery and Emergency Response Support and Specialized Projects relating to the
PWS, and other ancillary services that the EPA required in support of seat service. These
additional services were procured via task orders, under which the EPA and the contractor
negotiated the hours needed to perform the required work using the labor categories and fixed
rates set forth in contract. For this effort, the hours were negotiated but the Government agreed to
pay the fixed hourly rates. Given the above-described contract terms and conditions, the OIG’s
characterization of the contract as “provide technology services to approximately 12,000
program office users” is a misleading description of a contracting and pricing arrangement.

 OIG Evaluation. This report included statements obtained from and supported by the audited
 contract. EPA awarded an Indefinite Delivery/ Indefinite Quantity contract that issued task orders for
 supplies and services with time and materials provisions that the fixed rates include wages, overhead,
 general and administrative expenses and profit. According to the FAR Subsection 16.600, time and
 materials contracts are not fixed price contracts and Subsection 16.601 states fixed hourly rates are
 supposed to be specified. Based on our review of this contract, modifications (mods) indicated
 changes to the rates, hours and user requirements, so the possibility that fixed rates were used and
 the overall cost would not change appear to be misleading. Below shows changes to rates per seat:

                  Year 1               Year 2               Year 3                Year 4
 Contract         $169.75              $139.27              $139.43               $140.13
 Task Order 2     $175.00 (mod 4)      $147.28 (mod 8)      $146.70 (mod 15)      $147.28 (mod 23).

 If the overall cost is determined based on the changing fixed rate multiplied by the seats, the costs will
 reflect upward and downward revisions to the stated overall contract price. With these changes, this
 contract is not a firm fixed price contract and cost controls are needed. FAR Subsection16.601 states
 that for a time and materials contract, appropriate government surveillance of contractor performance
 is required to give reasonable assurance that efficient methods and effective cost controls are being
 used.




13-P-0398                                                                                                 26
Page 8: The OIG writes “By not linking award fee to cost outcomes as required, the EPA did not
effectively hold the contractor accountable for cost inefficiencies and inaccuracies…Even though
the agency did not award the contractor an incentive fee, there could have been additional
corrective actions implemented by having cost outcomes tied to contracting activity.” Pursuant to
the contract terms and conditions, contractor performance was evaluated against contract
performance metrics, and the contractor was held accountable when performance against those
metrics did not meet the level required for payment of incentive fees. Under the afore-mentioned
contract terms and conditions, performance was incentivized and the contractor was not awarded
an incentive fee when performance did not meet contract metrics. Accordingly, contract
incentives worked exactly as designed and intended in accordance with contract terms and
conditions. Under a fixed price arrangement, controlling costs is inherent in this contract type
and is therefore, not incentivized. The contractor has to deliver the services at the fixed rate in
the contract or absorb any additional costs associated with the services.

 OIG Evaluation. According to the FAR Subsection 16.202, a firm fixed price contract provides for a
 price that is not subject to any adjustment on the basis of the contractor’s cost experience in
 performing the contract. A firm fixed price contract type places upon the contractor maximum
 incentive for the contractor to control costs and can use award fee or incentives based on factors
 other than costs. There is nothing in the audited contract that states this is a fixed price contract. EPA
 awarded an Indefinite Delivery/ Indefinite Quantity contract that issued task orders for supplies and
 services with time and materials provisions that the fixed rates include wages, overhead, general,
 and administrative expenses, and profit. FAR Subsection 16.601 states that a time and materials
 contract provides no positive incentive to the contractor for cost control or labor efficiency. Therefore,
 appropriate government surveillance of contractor performance is required to give reasonable
 assurance that efficient methods and effective cost controls are being used. Since this contract has
 an award fee plan, FAR Subsection 16.401 9(e)(2) states award shall not be earned if the overall
 cost, schedule and technical performance is not at a satisfactory level.


Responses to the Recommendations

Recommendation 1: Update the policies and procedures to include controls that would ensure
contract performance metrics and standards include cost outcomes for all incentive and time and
materials contracts.

Recommendation 2: Update internal programs that provide oversight and accountability to
ensure that, for all incentive type and time and materials contract, the EPA performance metrics
link to cost outcomes.

OAM Response:

OAM disagrees with these recommendations and disagrees with the OIG’s recommendation that
cost is an appropriate incentive for all incentive and time and materials contracts. EPA’s CTS
Contract EP-W-08-034 is an Indefinite Delivery/Indefinite Quantity type contract with time and
materials pricing, under which the contractor may earn an incentive fee for performance that
exceeds metrics set forth in the contract.

Attachment 11 of the contract contains contract pricing. Under the Attachment 11 Base Period,
90% of the contract price is for standard seat service, “Seat Service” refers to all the desktop


13-P-0398                                                                                                     27
hardware and software required for EPA employees to perform work responsibilities. In the
contract, EPA estimated the maximum number of seats that may be required by the agency was
12,000, and the contractor proposed a monthly fixed price of $169.75 to ensure all EPA
employees – up to 12,000 - are provided with desktop hardware and software. Again 90% of
contract pricing used this methodology. The other pricing under Attachment 11 Base Period,
which totals 10% of the contract price, is for labor categories proposed by the contractor to
support various potential contract tasks, such as Disaster Recovery and Emergency Response
Support and Specialized Projects relating to the PWS, that the EPA may require in support of
seat service. These additional services were procured via task orders, under which EPA and the
contractor negotiated the hours needed to perform the required work using the labor categories
and fixed rates set forth in Attachment 11. For this effort, the hours were negotiated but the rates
were fixed.

Attachment 6 of the contract sets forth performance standards/metrics for seat service and other
tasks against which contractor performance is measured for the purpose of determining the
award fee. The performance standards/metrics identified are specifically tied to Performance
Work Statement tasks the contractor is performing to ensure all EPA employees have the
necessary desktop hardware and software to perform their work responsibilities. As such, the
criteria set forth in Attachment 6 of the contract is designed to measure critical contract
performance – timeliness, responsiveness, system security, user support, and customer
satisfaction.

Attachment 12 of the contract prescribes how the contractor will be paid an incentive fee for
elevated levels of performance, for example, if the performance metric is met at 100%, the
vendor receives 100% of the incentive fee, if met at 75%, the vendor receives 75%, etc. The final
fee is calculated against the Attachment 6 metrics, and paid against the Attachment 11 pricing.

OAM believes that writing a policy that “includes cost outcomes for all incentive and time and
materials contracts” is not necessary. Additionally, FAR Subpart 16.1 states selecting the
contract type is a matter for negotiation and requires the exercise of sound judgement. Factors
that should be considered in this negotiation are risk, complexity of the requirement, expected
price competition, urgency of the requirement, period of performance of the requirement (the
longer the more risk), and the contractor’s technical capability and financial responsibility. The
FAR also states that the objective is to negotiate a contract type and price that will result in
reasonable contractor risk and provide the contractor with the greatest incentive for efficient and
economical performance. In the above pricing arrangement, the number of seats was controlled
by the Government, and the price per seat was fixed, so the only risk to the Government was
with contractor performance. FAR Subsection 16.402 states that performance incentives may be
considered in connection with specific product characteristics (e.g., a missile range, an aircraft
speed, an engine thrust, or vehicle maneuverability) or other specific elements of the contractor’s
performance. These incentives should be designed to relate profit or fee to results achieved by
the contractor, compared with specified targets. OAM incentivized contractor performance
characteristics in the areas of timeliness, responsiveness, system security, user support, and
customer satisfaction, and fee was awarded based upon the contractor’s performance against
metrics set forth in these areas. Regardless of the amount of fee awarded against these metrics,
the vendor was entitled to collect the fixed price per seat set forth in the contract. Under the



13-P-0398                                                                                         28
above pricing structure, OAM properly assessed contract risk and established incentive fee
metrics to mitigate and shift the burden of that risk to the contractor. OAM does not agree with
writing a policy requiring cost be an incentive for all incentive and time and materials contracts.

 OIG Evaluation. The OAM response does not sufficiently address recommendations 1 and 2.
 OAM states OIG is recommending cost as an appropriate incentive, yet we are emphasizing FAR
 Subsections 16.401, 16.402, and 16.601, and OMB requirements that, for incentive (contracts with an
 award fee) and time and material contracts, agencies link cost outcomes to performance standards
 and metrics. Also, OAM’s response is stating they have the right to determine contract type when the
 issue is with the FAR additional requirements for the contract types already selected. To ensure the
 EPA is complying with FAR and OMB requirements addressed above, the EPA policies/procedures
 should require that for incentive (contracts with an award fee) and time and material contracts
 performance standards and metrics are linked to cost outcomes. In addition for recommendation 2,
 per OMB Circular A 123, agencies are responsible for establishing internal controls (policies and
 procedures) to achieve compliance with applicable laws and regulations and should design
 management structures that help ensure accountability for results.


Recommendation 3: Require OTOP, in conjunction with OAM, to review contractor
performance reports generated per the QASP. Require OTOP to coordinate all actions taken with
the COs and PO’s and require the CO’s to input contractor performance information into
CPARS.

Recommendation 4: Require CO’s to input interim reports into CPARS prior to their
reassignments.

OAM Response:

OAM agrees with these recommendations. With regard to the CTS contract, OAM has been
working with the program office to complete the required past performance evaluation(s). The
contract was registered and interim reports initiated in CPARS on Feb 1, 2013. Evaluation
narratives were drafted by OAM based on information obtained from the award-fee assessments;
and finalization of these reports is pending upon additional input from the program office (OEI).

With regard to overall past performance reporting, OAM believes adequate policy already exists
in the FAR and EPAAR with regard to reporting requirements. As part of the OAM Balanced
Scorecard Performance Measurement and Management Peer Review and Oversight Process,
OAM reviews individual office's procedures for monitoring Contractor Performance Assessment
Reporting System and evaluates whether the office has an effective oversight program.
Furthermore, in March 2013, OFPP began monitoring CPARS compliance and required all
federal agencies to establish compliance goals to be monitored both internally and externally. In
order to monitor and oversee both internal and external past reporting initiatives, OAM
designated a CPARS lead to monitor agencywide past performance reporting compliance on a
monthly basis. The lead ensures compliance by comparing PPIRS reports with the CPARS
database and disseminates the results to all agency CPARS focal points and their managers.
Beginning in February 2013, the CPARS representative is requiring Agency focal points report
status on any incomplete CPARS. Under the above described internal OAM compliance
program, OAM has already improved compliance by 15% and anticipates continual



13-P-0398                                                                                               29
improvement over the next few months. Additionally, as of June 2013, OAM appears to be on
target to meet our Agency CPARS compliance goal of 75 percent by the end of FY 2013.

Based upon EPA/OAM’s established, aggressive and continuous CPARS compliance oversight
and monitoring toward achieving and reporting against external goals, and given CPARS
monitoring is a recognized ongoing effort satisfies recommendation 4 and OARM considers this
recommendation closed.

 OIG Evaluation. Even though the agency agreed to recommendations 3 and 4, the comments are
 not completely responsive to the recommendations. The comments should address requiring that
 COs put interim reports into CPARS prior to their reassignments. This additional procedure will assist
 the agency to ensure that the contractor performance reports are entered into CPARS. The response
 did not address how or when OARM would implement the agreed-to recommendation to require COs
 input interim evaluation prior to reassignments in CPARS. This should be addressed as part of the
 60-day response to the final report. According to EPA Manual 2750, if the OIG determines that the
 agency’s intended corrective actions meet the intent of the recommendations, the OIG reports
 recommendations as resolved in the OIG's audit tracking system.


Recommendation 5: Develop OAM procedures to require that before there are personnel
reassignments, CO’s, PO’s, and QAM’s perform an inventory of required documents in their
possession or in the official contract file to ensure maintenance of accurate and complete records.

Recommendation 6: Update internal procedures and programs to include a process to transfer
all required documents to the newly appointed CO’s and PO’s or establish a key locator system
indentifying the location of required contracting documents.

OAM Response:
OAM agrees with these recommendations although regarding the need for policy updates with
regard to adequate file documentation, OAM believes sufficient internal and external policy and
procedures with regard to contract documentation requirements already exists in the FAR, the
Contract Management Manual, and the Acquisition Handbook. OAM also believes that
meaningful oversight and review processes are necessary to ensure compliance with the
applicable statutes, regulations, policies and procedures. Accordingly, OAM’s Balanced
Scorecard Performance Measurement and Management Program consists of self-assessment and
peer review oversight components that utilize a significant file review component to assess
compliance with statues, regulations, policies, and procedures as documented in the contract.
Under this approach, contract file documentation adequacy is internally reviewed by each
division, and also independently by an independent team of senior level contracting
professionals.

Since program implementation in FY 2012, OAM has been assessing the quality and compliance
of EPA’s acquisition system agency-wide, and using review results to identify acquisition system
weaknesses, and correct problems areas through training and/or implementation of policy and
process guidance. In peer reviews to date, the need for improved contract file documentation has
been identified as a systems issue finding, and as a result, individual organizations have
developed corrective action plans and OAM has been including documentation requirements
under various comprehensive new acquisition policies on Acquisition Planning and the CPARS.


13-P-0398                                                                                                 30
In addition, Acquisition Handbook, Section 4.1, is being updated to prescribe requirements for
streamlined internal controls (e.g., higher-level transactional reviews), to ensure the sufficiency
and quality of file documentation in support of support contracting officer decisions and actions
and an updated standardized checklist for contract file documentation. Under the BSC PMMP
program, all OAM staff are accountable for the quality and health of the EPA acquisition system.
Information on OAM’s BSC PMMP Program may be found on the OAM intranet under the
“Balanced Scorecard” tab on the left.

Based upon EPA/OAM’s established and aggressive BSC PMMP compliance oversight and
monitoring program, OAM requests the above described ongoing actions be considered and
these recommendations be closed.

 OIG Evaluation. The agency agreed with the recommendations 5 and 6. However, the agency’s
 comments are not completely responsive to the recommendations. The recommendations discussed
 procedures as opposed to policy and OAM procedures are necessary to provide details on what
 should be done to ensure maintenance of accurate and complete contract records. The policies
 OAM mentioned do not address procedures needed when there are CO, PO and QAM
 reassignments and new appointments. Procedures to perform an inventory of the required contract
 documents would assist in ensuring maintenance of accurate and complete records. In addition,
 procedures are needed to include a process to transfer all required documents to the newly
 appointed COs and POs or establish a key locator system indentifying the location of required
 contracting documents. According to EPA Manual 2750, if the OIG determines that the agency’s
 intended corrective actions meet the intent of the recommendations, the OIG reports
 recommendations as resolved in the OIG's audit tracking system.


Should you have any questions regarding the OEI issues, please contact Scott Dockum at (202)
566-1914; any questions regarding OAM’s responses can be directed to Rebecca Snipe at (202)
564-8346.




13-P-0398                                                                                          31
                                                                                Appendix E

                                    Distribution
Office of the Administrator
Assistant Administrator for Administration and Resources Management
Assistant Administrator for Environmental Information and Chief Information Officer
Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Director, Office of Acquisition Management, Office of Administration and
       Resources Management
Director, Office of Technology Operations and Planning, Office of Environmental Information
Audit Follow-Up Coordinator, Office of Administration and Resources Management
Audit Follow-Up Coordinator, Office of Environmental Information




13-P-0398                                                                                     32
